Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the El Dorado County Sheriff's DepartmentPlacerville, California

GR-90-03-010


February 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the El Dorado County Sheriff's Department (EDSD).  The purpose of the grants is to enhance community policing.  The EDSD was awarded a total of $2,360,717 to hire 16 new deputy sheriffs and redeploy the equivalent of 32.9 existing full-time deputy sheriffs from administrative duties to community policing.
We reviewed the EDSD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, reimbursement requests, and retention of officer positions.  We found weaknesses in the areas of officer redeployment and community policing activities because the EDSD had not implemented the equipment and technology for the MORE 95 and MORE 98 grants.  As a result of the deficiencies identified below, we question $627,648 in grant funds received and recommend an additional $52,834 be deobligated and put to better use.1

The MORE 95, MORE 96 and MORE 98 grants have exceeded the three-year limit set by statute 42USC46, Section 3796dd-2.
There has been no redeployment of officer full-time equivalent positions into community policing activities for the MORE 95 and MORE 98 grants because the technology was not operational.
The EDSD could document the redeployment of only 5.9 of the required 6.4 sworn officer FTEs into community policing activities because the EDSD terminated a civilian who worked part-time and did not fill the vacancy.  As of the close of fieldwork, COPS had not deobligated the balance of the MORE 96 grant award ($52,834).

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.